              Toll-Free Account Assistance to Taxpayers Is
              Professional and Timely, but Improvement Is
                   Needed in the Information Provided

                                  February 2004

                       Reference Number: 2004-40-057




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                          February 27, 2004


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION
                      COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                      DIVISION


       FROM:                  Gordon C. Milbourn III
                              Acting Deputy Inspector General for Audit

       SUBJECT:               Final Audit Report - Toll-Free Account Assistance to Taxpayers
                              Is Professional and Timely, but Improvement Is Needed in the
                              Information Provided (Audit # 200340045)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       toll-free telephone assistance program for account questions. The overall objective of
       this review was to provide an assessment of the quality of taxpayers’ experiences with
       the program. This audit was part of the Treasury Inspector General for Tax
       Administration’s Fiscal Year (FY) 2003 Annual Audit Plan.
       Each year, millions of taxpayers call the IRS for assistance in understanding the tax law
       and meeting their tax obligations. During FY 2003, the IRS handled over 55 million
       telephone calls. These calls included over 26 million calls from taxpayers who had
       questions about their accounts and who chose to speak with a Customer Service
       Representative (CSR).
       With the continued demands from taxpayers for assistance, the quality of service to
       taxpayers remained among the major management challenges the IRS faced in
       FY 2003. While it is the IRS’ goal to provide taxpayers with quality tax assistance
       comparable to the best available in the private and public sectors, over the years, the
       IRS has faced challenges in providing quality service to meet the needs of taxpayers.
       One of the IRS’ major strategies for FY 2003 was to increase the quality and efficiency
       of communications and services provided to taxpayers by improving critical business
       processes. The aim was to provide prompt and courteous responses to all requests for
       assistance. The IRS’ goal is to make its telephone operation a “world-class customer
       service organization” that provides taxpayers with accessible and accurate tax
       assistance.
                                            2

In summary, from a judgmental sample of 191 calls monitored between April 21 and
May 16, 2003, we determined that CSRs treated taxpayers professionally for 99 percent
of the calls and provided timely service for 83 percent of the calls. In addition,
78 percent of taxpayers (149 of 191 monitored calls) received accurate answers to their
account questions. Using a statistical sample during the same period we reviewed, the
IRS reported rates of 100 and 97 percent, respectively, for professionalism and
timeliness, and 88 percent for customer accuracy. The IRS defines customer accuracy
as giving the correct answer with the correct resolution.
In our sample, CSRs did not always follow IRS procedures; this prevented 22 percent of
the taxpayers (42 of 191) from receiving the correct answer or resolution. We identified
(scored) the response as inaccurate if the response provided was either incorrect or
incomplete.
We also identified an additional 12 of the 191 calls in which the CSR did not ask the
caller all 5 required identification probe questions. IRS guidelines require the CSR to
fully authenticate the caller as authorized to receive the information with five required
identification probe questions before providing an answer to the taxpayer’s question. In
addition, IRS guidelines currently allow CSRs discretion in asking additional
authentication probes if any of the probes but filing status do not agree with the
information in the IRS computer systems (they must ask additional questions if the filing
status does not match). The IRS believes that asking taxpayers additional questions
might cause additional taxpayer burden. However, we believe taxpayers would
understand the necessity of additional questions if it were clearly explained to the
taxpayer that the IRS is doing its utmost to ensure the confidentiality of the taxpayer’s
information.
We recommended that the Commissioner, Wage and Investment Division, ensure IRS
employees receive additional training on the effective and complete use of Internal
Revenue Manual (IRM) procedures and guidelines to address questions when providing
toll-free account assistance. We also recommended strengthening the internal
procedures and requirements to ensure all required probes are asked and verified. If
the caller does not provide accurate information for all five required authentication
probes, the IRS should require the CSR to ask the additional questions (referred to as
high-risk questions) to minimize the risk of unauthorized disclosure. In addition, the IRS
should include the errors or omissions made during authentication probes in its overall
customer accuracy or disclose to external stakeholders that the reported customer
accuracy does not include these authentication errors.
Our recommendations will provide the following measurable benefits on tax
administration: reduction of taxpayer burden, improvement to taxpayer privacy and
security, and improvement to the reliability of information. Improving the accuracy of
responses to taxpayer questions will reduce taxpayer burden. Ensuring all five required
authentication questions are asked and verified, and requiring the CSR to go to
high-risk questions if any of the five required authentication questions are answered
incorrectly, would minimize the risk of unauthorized disclosure of taxpayer information.
Including the disclosure error in its reported customer accuracy will improve the
                                             3

reliability of the information the IRS reports to its stakeholders. Appendix IV of this
report provides a detailed description of these benefits, which will be included in our
Semiannual Report to the Congress.
Management’s Response: IRS management partially agreed to our recommendations.
IRS management agreed that most account errors negatively affecting Customer
Accuracy are caused by the incomplete research or inaccurate interpretation of account
reference materials. IRS management also agreed that the IRM and Account
Resolution Guide can be improved to make it easier for the CSRs to understand and
comply with authentication procedures. IRS management developed Continuing
Professional Education training for FY 2004 that addresses effective and complete use
of the IRM procedures and guidelines.
However, IRS management did not agree with our position regarding the reporting of
defects related to the authentication process, indicating that the IRS’ classification of
this type of defect as a Regulatory Accuracy defect does not impact the importance that
IRS management attaches to taking the proper steps during the authentication process.
IRS management disagreed with our assumption that a defect in the authentication
process has a direct impact on the taxpayer and should be classified as if an
unauthorized disclosure occurred.
IRS management also disagreed with requiring the use of the high-risk questions. They
believe the current procedures are appropriate and strike a proper balance between
protecting confidentiality and providing service without unnecessary burden. They also
pointed out that our interpretation on the use of high-risk questions is incorrect with
regards to when those questions are required under current procedures.
Lastly, IRS management agreed with two of our three reported outcome measures.
They did not agree with the outcome measure listed as Reliability of Information
because they believe their reporting accurately reflects the results of their quality review
process. Management’s complete response to the draft report is included as
Appendix VII.
Office of Audit Comment: On page 3 of the IRS’ response, IRS management stated that
we were not correct in saying that if taxpayers’ responses to the first four probes do not
match the IRS’ information, the CSR may ask, but is not required to ask, additional
questions. IRS management explained that if the first two questions on identification
number and taxpayer’s name do not match the IRS’ information, the IRS advises the
caller to check the information and call back. The IRM states that if the taxpayer cannot
confirm the correct address or date of birth, the CSR may request additional
information. If the taxpayer cannot confirm filing status, the CSR is required to do
additional probes. However, the IRM is silent on what the CSR should do if the
identification number and taxpayer’s name do not match the IRS’ information.
The IRS does not consider not adequately authenticating the taxpayer as an error that
directly affects the taxpayer, since he or she was provided with the correct answer or
resolution. However, we believe that providing information to an individual without fully
authenticating him or her increases the risk that a taxpayer’s confidential information
                                            4

has been disclosed to an unauthorized individual. This could have a direct impact on
the taxpayer. Therefore, we believe these errors should be reported in customer
accuracy. We also believe not including this information in the reported accuracy rate
may affect external stakeholders’ assessment of the IRS’ performance. As a result, we
believe our outcome measure addressing Reliability of Information is appropriate.
In addition, we believe requiring the use of the high-risk questions is warranted to
reduce the risk of disclosing confidential information. We believe that the necessity of
the additional questions can be explained to the taxpayer and the additional questions
would not be considered a burden considering the consequences of unauthorized
disclosure. While we still believe our recommendations are worthwhile, we do not
intend to elevate our disagreement to the Department of the Treasury for resolution.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
            Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                    but Improvement Is Needed in the Information Provided




                                                  Table of Contents


Background ............................................................................................... Page 1
Customer Service Representatives Provided
Professional and Timely Service ............................................................... Page 4
Customer Service Representatives Provided
Accurate Account Information in 78 Percent of Test Calls......................... Page 6
         Recommendation 1: ...................................................................... Page 9

Account Customer Accuracy Does Not Reflect Errors Made
When Authenticating the Taxpayer .......................................................... Page 9
         Recommendation 2: ...................................................................... Page 12
         Recommendation 3: ...................................................................... Page 13

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 15
Appendix II – Major Contributors to This Report........................................ Page 16
Appendix III – Report Distribution List ....................................................... Page 17
Appendix IV – Outcome Measures ............................................................ Page 18
Appendix V – Comparisons of Account Calls Product Line Applications ... Page 20
Appendix VI – Account Calls Product Line Attributes ................................ Page 21
Appendix VII – Management’s Response to the Draft Report ................... Page 23
        Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                but Improvement Is Needed in the Information Provided

                                According to the April 2003 Internal Revenue Service (IRS)
Background
                                Oversight Board Annual Report, 90 percent of Americans
                                surveyed viewed the IRS service of providing a toll-free
                                telephone number to answer their questions as either very or
                                somewhat important to them. The IRS’ goal is to make its
                                telephone operation a “world-class customer service
                                organization” that provides taxpayers with quality tax
                                assistance comparable to the best available in the private
                                and public sectors. The IRS has faced challenges in
                                providing this quality service. Though the IRS has been
                                improving the quality of its toll-free service, the quality of
                                this service continues to be reported by the National
                                Taxpayer Advocate as one of the most serious problems
                                facing taxpayers.1
                                One of the IRS’ major strategies for Fiscal Year (FY) 2003
                                was to increase the quality and efficiency of
                                communications and services provided to taxpayers by
                                improving critical business processes. The aim was to
                                provide prompt and courteous responses to all requests for
                                assistance.
                                The IRS provides a Tax Help Line (1-800-829-1040) for
                                individuals and joint filers who need procedural or tax law
                                information or help to file their individual returns and for
                                general account information for individuals who file a
                                United States (U.S.) Individual Income Tax Return
                                (Form 1040), including the Profit or Loss From Business
                                (Sole Proprietorship) (Schedule C) and Supplemental
                                Income and Loss (Schedule E). Automated help is also
                                offered on this line.
                                During FY 2003, the IRS answered over 55 million
                                telephone calls. These calls included over 26 million calls
                                from taxpayers who had questions about their accounts and
                                who chose to speak with a Customer Service Representative
                                (CSR). This is referred to as the Account Calls Product
                                Line.
                                CSRs answer account inquiries and are responsible for
                                providing taxpayers with information on the status of their
                                returns/refunds and for resolving the majority of issues and


                                1
                                    National Taxpayer Advocate Fiscal Year 2002 Report to Congress.
                                                                                               Page 1
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
        but Improvement Is Needed in the Information Provided

                        questions to settle their accounts. The IRS defines an
                        account call as any call:
                        •   Relating to a taxpayer’s account, both individual and
                            business accounts.
                        •   Regarding entity information (i.e., taxpayer’s or
                            spouse’s name, address, Social Security Number, filing
                            status, and tax year), the processing of a tax return,
                            corrections of errors found during processing, and
                            corrections resulting from adjustments or examination
                            assessments.
                        •   Regarding procedural issues (e.g., where to file a return,
                            when and where to make payments, etc.).
                        •   Relating to any other questions on refunds or
                            procedures.
                        To ensure quality service, the IRS groups or categorizes
                        calls by topics called Applications and by Wage and
                        Investment (W&I) Division taxpayers and Small
                        Business/Self-Employed (SB/SE) Division taxpayers.2
                        There are a total of 10 Applications for the Account Calls
                        Product Line. (See Appendix V for a complete listing of
                        these Applications.)
                        CSRs are trained and certified for each current filing season3
                        on specific Applications. For example, if an individual
                        taxpayer calls to find out where to mail a tax return, the call
                        would be routed to a CSR that has been trained to handle
                        IRS procedural issues for the W&I Division. If a business
                        taxpayer calls to find out the taxes due on a business
                        account, the call would be routed to a CSR that handles
                        balance-due questions for the SB/SE Division.
                        To measure its customer service, the IRS uses a quality
                        measurement system called Embedded Quality, which links
                        employee performance to organizational results related to
                        the quality of customer service. To accomplish this, IRS

                        2
                          The W&I Division serves taxpayers who earn wages and have
                        investment income. The SB/SE Division serves self-employed
                        taxpayers and small businesses, including corporations and partnerships
                        with assets of $10 million or less.
                        3
                          The period from January through mid-April when most individual
                        income tax returns are filed.
                                                                                        Page 2
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
        but Improvement Is Needed in the Information Provided

                        management listens to a statistical sample of live taxpayer
                        calls from among the Applications and scores the calls using
                        81 attributes4 that are divided into 5 quality measures:
                        •   Customer Accuracy.
                        •   Regulatory Accuracy.
                        •   Procedural Accuracy.
                        •   Professionalism.
                        •   Timeliness.
                        The customer accuracy, professionalism, and timeliness
                        measures are reported to the IRS Commissioner as part of
                        the IRS’ balanced measures.5 The regulatory accuracy and
                        procedural accuracy measures are reported internally to IRS
                        management to identify trends and training opportunities.
                        The customer accuracy measure is also reported externally
                        to IRS stakeholders, e.g., the Congress and the General
                        Accounting Office, and as part of the reporting requirement
                        of the Government Performance and Results Act of 1993
                        (GPRA).6 The GPRA requires that all Federal agencies
                        have appropriate quantitative performance measures. (See
                        Appendix VI for details of the Embedded Quality and a list
                        of the account calls attributes.)
                        The National Taxpayer Advocate stated in the 2002 report
                        that:
                                 [the] Embedded Quality initiative has the
                                 potential to significantly bolster public
                                 confidence in IRS responses through an
                                 improved portrayal of program performance
                                 and a heightened engagement of each
                                 assistor in the quality process. Measuring
                                 employees on timeliness, professionalism,
                                 and accuracy – qualities that internal and
                                 external users identified as critical to

                        4
                          Attributes identify specific aspects of a call that need to be considered
                        when measuring the quality of customer service.
                        5
                          Three measures (employee satisfaction, customer satisfaction, and
                        business results) the IRS uses to measure organizational and employee
                        performance.
                        6
                          Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered
                        sections of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).
                                                                                            Page 3
          Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                  but Improvement Is Needed in the Information Provided

                                         customer satisfaction – will align IRS
                                         performance with taxpayer expectations.
                                  Embedded Quality was first used on the toll-free operations
                                  during the 2003 Filing Season. The IRS remotely
                                  monitored over 17,300 taxpayer account calls during the
                                  2003 Filing Season. Although the IRS has previously
                                  measured the professionalism and timeliness of the
                                  assistance it provides, the new measures were baselined in
                                  FY 2003 for comparison to future years. For FY 2003, the
                                  IRS’ goal for toll-free account customer accuracy was
                                  91.2 percent. The IRS reported 88.5 percent account
                                  customer accuracy for FY 2003.
                                  This review was performed at the W&I Division
                                  Headquarters in Atlanta, Georgia; W&I Division Customer
                                  Account Services, Account Management Office, at the
                                  New Carrollton Federal Building in Lanham, Maryland; the
                                  Centralized Quality Review System in
                                  Philadelphia, Pennsylvania; and the W&I Division
                                  Customer Account Services, Program Coordination and
                                  Support Office, in Dallas, Texas, and New York, New York.
                                  Our review was limited to monitoring calls made to the
                                  1-800-829-1040 toll-free line by taxpayers asking questions
                                  about their accounts. We selected a judgmental sample of
                                  calls to monitor between April 21 and May 16, 2003. Our
                                  results cannot be compared to statistical results reported by
                                  the IRS.
                                  The audit was conducted between March and October 2003
                                  in accordance with Government Auditing Standards.
                                  Detailed information on our audit objective, scope, and
                                  methodology is presented in Appendix I. Major
                                  contributors to the report are listed in Appendix II.
                                  When taxpayers called the IRS toll-free number with
Customer Service
                                  questions about their accounts, they received professional
Representatives Provided
                                  and timely service. For our judgmental sample of
Professional and Timely Service
                                  191 monitored calls, CSRs treated taxpayers professionally
                                  99 percent of the time and provided timely service
                                  83 percent of the time. During the same time period using
                                  statistical sampling, the IRS reported rates of 100 and
                                  97 percent for professionalism and timeliness, respectively.


                                                                                         Page 4
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
        but Improvement Is Needed in the Information Provided

                        Using the same attributes the IRS uses in Embedded
                        Quality, we considered the CSR to have acted professionally
                        if the CSR greeted the taxpayer upon answering the
                        telephone call, was courteous, used appropriate language,
                        and ensured the taxpayer’s level of understanding of the
                        answer provided. The CSR was considered to be timely if
                        the CSR controlled unrelated or unnecessary dialogue
                        initiated by the taxpayer and restrained from initiating
                        unnecessary dialogue with the taxpayer. Results are
                        presented in Tables 1 and 2.

                                Table 1: Comparison of the Treasury Inspector General
                                   for Tax Administration (TIGTA) and IRS Rates
                                       for Attributes Comprising Professionalism

                            PROFESSIONALISM                             TIGTA           IRS

                            Greeting                                     100%          100%

                            Purpose Statement7                           100%          100%

                            Closing (Telephones)                         99%           100%

                            Ensured Taxpayer Understanding               100%           97%

                            Used Appropriate Language                    100%          100%

                            Courteous                                    98%           100%

                            Effective Listening                          98%           100%

                            Apologized8                                  33%            96%

                        Source: Results of the TIGTA and IRS independent reviews of
                        toll-free account calls received between April 21 and May 16, 2003.




                        7
                          Purpose Statement is used to identify if the CSR explained the process
                        or actions to be taken when on the telephone and when appropriate.
                        8
                          In our sample, there were only three calls in which the CSR needed to
                        apologize.
                                                                                         Page 5
         Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                 but Improvement Is Needed in the Information Provided

                                           Table 2: Comparison of the TIGTA and IRS Rates
                                                 for Attributes Comprising Timeliness

                                     TIMELINESS                                  TIGTA           IRS

                                     Avoid Extraneous Dialogue                     99%          100%

                                     Conversation Control9                         33%          95%

                                 Source: Results of the TIGTA and IRS independent reviews of toll-free
                                 account calls received between April 21 and May 16, 2003.

                                 The IRS deals with more Americans than any other public
                                 institution. For many individuals that contact the IRS, the
                                 CSR is the ‘face’ of the IRS, as they may be the only
                                 personal contact the individual has with the IRS. Providing
                                 top-quality service to taxpayers is a key aspect of the IRS’
                                 mission. Taxpayers expect and receive professional and
                                 timely service, as evidenced by the high rates reported by
                                 the IRS and the TIGTA in these categories. Each positive
                                 interaction a taxpayer has with the IRS will increase the
                                 taxpayer’s confidence that the IRS is achieving its mission.
                                 For the 191 calls monitored, the CSRs provided taxpayers
Customer Service
                                 with accurate answers to their account questions on
Representatives Provided
                                 78 percent (149 of 191) of the calls. The IRS reported
Accurate Account Information
                                 88 percent customer accuracy for account calls using a
in 78 Percent of Test Calls
                                 statistical sample during the same period we reviewed. The
                                 IRS defines customer accuracy as giving the correct answer
                                 with the correct resolution. Our results are presented in
                                 Table 3.




                                 9
                                  In our sample, there were only three calls in which the CSR needed to
                                 control the conversation.
                                                                                                Page 6
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
        but Improvement Is Needed in the Information Provided



                                    Table 3: TIGTA Results of Monitoring 191 Calls

                                                                                     CUSTOMER
                                                      CALLS           CORRECT
                              APPLICATIONS                                           ACCURACY
                                                    MONITORED         ANSWERS
                                                                                       RATE

                       W&I Procedural                    12               9             75%
                       W&I Individual Master
                       File (IMF)10 Balance              13               9             69%
                       Due
                       W&I Non-Streamlined
                                                          3               3             100%
                       Installment Agreement11
                       W&I Refund                        26               19            73%

                       W&I IMF Account                   89               73            82%

                       Employee Tax Account              12               10            83%
                       Business Master File12
                                                         11               10            91%
                       Other
                       SB/SE Procedural                   1               0              0%
                       SB/SE IMF Balance
                                                         10               6             60%
                       Due
                       SB/SE IMF Account                 14               10            71%

                       Total                             191             149            78%

                         Source: Results of the TIGTA review of toll-free account calls received
                         between April 21 and May 16, 2003.

                         We considered the CSR as answering a taxpayer’s question
                         correctly if the taxpayer received a correct response or the
                         CSR took the appropriate action or disposition leading to a
                         correct resolution.



                         10
                            The IRS database that maintains transactions or records of individual
                         tax accounts.
                         11
                            A non-streamlined installment agreement is an installment agreement
                         in which the total assessed balance is greater than $25,000 or cannot be
                         fully paid within 60 months.
                         12
                            The IRS database that consists of Federal tax-related transactions and
                         accounts for businesses. These include employment taxes, income taxes
                         on businesses, and excise taxes.
                                                                                          Page 7
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
        but Improvement Is Needed in the Information Provided

                        In our sample, CSRs did not always follow IRS procedures;
                        this prevented 42 of 191 taxpayers from receiving the
                        correct answer or resolution. For example, when the
                        taxpayer:
                        •    Inquired about a tax refund, the taxpayer was not
                             provided with the correct amount of the refund.
                        •    Inquired if the IRS had received his or her tax return, the
                             taxpayer was told the IRS had not received the return,
                             when in fact it had.
                        •    Asked various tax questions about specific tax laws, the
                             taxpayer was not provided the correct answer(s) to tax
                             law question(s) because the CSR did not correctly
                             interpret the situation presented by the taxpayer or did
                             not interpret the law correctly.
                        •    Asked for a location and/or telephone number of a local
                             IRS office where the taxpayer could receive face-to-face
                             service, the taxpayer was not provided with the correct
                             address or was provided with an IRS office location
                             address that was temporarily closed.
                        CSRs are trained on how to communicate with taxpayers
                        and on tax laws and IRS procedures. Every filing season,
                        IRS management certifies that all CSRs have received the
                        appropriate training.
                        The IRS Internal Revenue Manual (IRM) provides
                        instructions on how to respond to taxpayer calls and account
                        questions. The CSRs answering account calls are also
                        encouraged to use the Account Resolution Guide.13 The
                        instructions in the Account Resolution Guide are the same
                        as those in the IRM procedures but are condensed for user-
                        friendly access.
                        The CSR is required to provide his or her name and
                        identification number. The CSR is first required to
                        authenticate the taxpayer; i.e., the CSR must be sure that he




                        13
                           The Account Resolution Guide is used to respond to telephone and
                        face-to-face inquiries about tax account issues. It is limited to the most
                        frequent notice and refund inquiries.
                                                                                           Page 8
         Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                 but Improvement Is Needed in the Information Provided

                                 or she is speaking to the correct taxpayer or third party
                                 representative14 authorized to receive the tax information.
                                 After the CSR authenticates the taxpayer, the CSR is
                                 required to use the IRM guidelines to determine the reason
                                 for the call and attempt to answer the taxpayer’s question(s)
                                 or resolve the taxpayer’s account issue.
                                 When the IRS does not provide accurate information to
                                 taxpayers, they may not be getting their issues resolved,
                                 requiring additional contacts with the IRS and additional
                                 taxpayer burden. This could erode taxpayer confidence and
                                 compliance.

                                 Recommendation

                                 The Commissioner, W&I Division, should:
                                 1. Ensure IRS employees receive additional training on the
                                    effective and complete use of IRM procedures and
                                    guidelines to address questions when providing toll-free
                                    account assistance to taxpayers.
                                 Management’s Response: The IRS continually analyzes the
                                 data and the results of its Embedded Quality review process.
                                 Accounts quality defect information was used to develop
                                 Continuing Professional Education (CPE) training for
                                 FY 2004 that addresses effective and complete use of the
                                 IRM procedures and guidelines. This training is mandatory
                                 for FY 2004 CPE.
                                 The IRS does not consider it a direct impact to the taxpayer
Account Customer Accuracy
                                 when the CSR does not ask all the required identification
Does Not Reflect Errors Made
                                 probe questions or does not correctly complete the taxpayer
When Authenticating the
                                 authentication probe. Therefore, the IRS does not include
Taxpayer
                                 this as an error in the calculation of customer accuracy and
                                 when reporting the customer accuracy externally to
                                 stakeholders.

                                 14
                                   Taxpayers may designate paid or unpaid return preparers, a family
                                 member, or a friend as a “third party designee.” This authority is
                                 limited to the specific tax form for a specific tax period in question.
                                 Third party designees may receive tax information related to return
                                 processing issues such as refunds or payments and certain notices
                                 provided to the taxpayer. A third party designee is not entitled to
                                 information about compliance issues.
                                                                                                    Page 9
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
        but Improvement Is Needed in the Information Provided

                        The IRM provides guidelines to ensure the CSR fully
                        authenticates the caller as authorized to receive the
                        information.15 The CSR must probe (question) the caller
                        regarding each taxpayer’s:
                        (1)   Identification number.
                        (2)   Name.
                        (3)   Address.
                        (4)   Date of birth.
                        (5)   Filing status.
                        If the taxpayer’s responses to the first four probes do not
                        match the IRS’ information, the CSR may ask additional
                        questions (referred to as high-risk questions) to help
                        authenticate the caller, but is not required to ask additional
                        questions. However, if the caller cannot provide the correct
                        filing status used to file the return in question, the CSR must
                        ask two or more additional questions to authenticate the
                        caller as someone eligible to receive information about the
                        account.
                        Not asking one of the five required probes for a caller is
                        considered a disclosure attribute not met and is scored as a
                        regulatory error. This regulatory error is reported internally,
                        but it is not considered in the calculation for customer
                        accuracy. The IRS does not consider this error as directly
                        affecting the taxpayer since the taxpayer received a correct
                        answer with the correct resolution.
                        For an additional 12 of the 191 calls monitored, the CSR did
                        not follow guidelines and ask the caller the minimum
                        required probes. For the 12 calls, the CSR did not ask the
                        taxpayers’ filing status in 8 calls, did not ask the taxpayer’s
                        name in 1 call, and did not authenticate the third party or
                        corporate officer in 3 calls. In all instances, the CSR
                        disclosed information to the caller about the account.
                        Including these errors in our results would reduce the
                        customer accuracy reported above from 78 percent (149 of
                        191) to 72 percent (137 of 191) of the calls monitored.



                        15
                          The CSR must follow certain procedures to authenticate a third party
                        designee.
                                                                                      Page 10
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
        but Improvement Is Needed in the Information Provided

                        During the same period we reviewed, the IRS monitored
                        2,482 calls and reported 88 percent (2,182 of 2,482)
                        customer accuracy. Had the IRS considered disclosure to
                        affect its customer accuracy, the IRS’ customer accuracy
                        would have been reduced from 88 percent to 84 percent
                        (2,087 of 2,482) for the calls sampled between April 21 and
                        May 16, 2003.16 This would have provided a more accurate
                        portrayal of the IRS’ level of customer service.
                        CSRs are responsible for knowing with whom they are
                        speaking and the purpose of the call/contact. They must
                        authenticate each caller as someone entitled to receive
                        information about a tax return or tax account. Only after
                        authenticating the taxpayer or third party designee should
                        the CSR disclose information about the account to the
                        caller.
                        Providing information to an individual without fully
                        authenticating him or her increases the risk that a taxpayer’s
                        confidential information has been disclosed to an
                        unauthorized individual. This could have a direct impact on
                        the taxpayer. It is the responsibility of all IRS employees to
                        protect confidential taxpayer information and to understand
                        what is and what is not an authorized disclosure under the
                        provisions of the law.
                        We believe that not adequately authenticating the caller
                        prior to providing tax information should be an error
                        considered to affect the taxpayer and reported in customer
                        accuracy. Not adequately authenticating the taxpayer may
                        be viewed by a court as either carelessness or a failure to
                        exercise due care. The burden is on the IRS employee to
                        ensure that the disclosure is authorized. Therefore, under
                        such circumstances, a court could find that the employee
                        made an unauthorized disclosure of a tax return(s) or return
                        information.
                        We understand that the IRS believes that customer accuracy
                        should reflect only the accuracy rate of the answers to the
                        account questions and that Embedded Quality was designed
                        to accomplish this. We believe not including authentication
                        error information in the reported accuracy rate may affect

                        16
                          This reduction is the result of reducing the number of correct calls
                        from 2,182 – 2087 = 95.
                                                                                         Page 11
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
        but Improvement Is Needed in the Information Provided

                        stakeholders’ assessment of the IRS’ performance. If the
                        IRS chooses not to include this error in its customer
                        accuracy when reporting results externally, it should qualify
                        the results by stating that errors made when authenticating
                        the taxpayer are not included in customer accuracy.
                        In addition, we believe that if any information provided by
                        the taxpayer during the identification probes does not match
                        the information the IRS has in its records (the first four
                        probes), the IRS employee should be required to go to
                        high-risk questions. The IRM and Account Resolution
                        Guide currently allow the CSR discretion in asking
                        additional authentication probes. The IRS believes that
                        asking a taxpayer additional questions might cause
                        additional taxpayer burden. However, we believe the
                        taxpayer would understand the necessity of additional
                        questions if it were clearly explained to the taxpayer that the
                        IRS is doing its utmost to ensure the confidentiality of the
                        taxpayer’s information.

                        Recommendations

                        The Commissioner, W&I Division, should:
                        2. Strengthen the IRM and Account Resolution Guide to
                           ensure all required probes are asked and verified and
                           that the CSRs are required to go to the high-risk
                           questions when information in the IRS systems does not
                           match a caller’s information.
                        Management’s Response: IRS management agreed that
                        improvements to the IRM and Account Resolution Guide
                        can be made to improve usability and make it easier for the
                        CSRs to understand and comply with authentication
                        procedures. However, they disagreed with requiring the use
                        of the high-risk questions. IRS management believes the
                        current procedures are appropriate and strike a proper
                        balance between protecting confidentiality and providing
                        service without unnecessary burden.
                        Office of Audit Comment: On page 3 of the IRS’ response,
                        IRS management stated that we were not correct in saying
                        that if taxpayers’ responses to the first four probes do not
                        match the IRS’ information, the CSR may ask, but is not
                        required to ask, additional questions. IRS management
                                                                               Page 12
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
        but Improvement Is Needed in the Information Provided

                        explained that if the first two questions on identification
                        number and taxpayer’s name do not match the IRS’
                        information, the IRS advises the caller to check the
                        information and call back. The IRM states that if the
                        taxpayer cannot confirm the correct address or date of birth,
                        the CSR may request additional information. If the taxpayer
                        cannot confirm filing status, the CSR is required to do
                        additional probes. However, the IRM is silent on what the
                        CSR should do if the identification number and taxpayer’s
                        name do not match the IRS’ information.
                        The purpose of the recommendation is to reduce the risk
                        that the IRS is disclosing confidential information.
                        Considering the importance the IRS and the Congress place
                        on protecting taxpayer privacy, we believe the additional
                        questions are warranted to reduce this risk. We believe that
                        this can be explained to the taxpayer and the additional
                        questions would not be considered a burden considering the
                        consequences of unauthorized disclosure. We also
                        understand that the IRS is concerned with serving as many
                        taxpayers as possible. However, we believe the additional
                        minute(s) it would take the IRS to ask and the taxpayer to
                        answer the additional questions is warranted considering the
                        potential disclosure and affect on taxpayers.
                        3. Include disclosure errors as a part of the overall
                           customer accuracy or disclose to external stakeholders
                           that the reported customer accuracy does not include
                           these authentication errors.
                        Management’s Response: IRS management also disagreed
                        with this recommendation. They stated that accuracy
                        measures (Customer, Regulatory, and Procedural) were
                        designed to be independent of each other, and there is not an
                        “overall customer accuracy” measure. The current reporting
                        is consistent with IRS guidelines for the Strategy and
                        Program Plan and IRS measures and is consistent with the
                        way Regulatory Accuracy and Procedural Accuracy
                        non-disclosure related defects are classified and reported.
                        Changing the current definition would be inappropriate and
                        would constitute inaccurate reporting.
                        Office of Audit Comment: The IRS includes in its accuracy
                        rate that which it considers to directly impact the taxpayer.
                        It considers a disclosure error to affect the taxpayer only if
                                                                              Page 13
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
        but Improvement Is Needed in the Information Provided

                        the disclosure is detected during the telephone call. As
                        stated, we believe that not adequately authenticating the
                        caller prior to providing tax information should be an error
                        considered to directly impact the taxpayer and reported in
                        the customer accuracy rate. Because a disclosure was not
                        identified during the telephone call does not preclude the
                        possibility that there is a direct impact to the taxpayer
                        caused by an unauthorized disclosure.
                        The IRS did not agree with the outcome measure listed as
                        Reliability of Information because it believes the reporting
                        accurately reflects the results of their quality review process.
                        However, we believe this disclosure error should be
                        included in the customer accuracy rate so that external
                        stakeholders have sufficient reliable information to assess
                        the IRS’ performance.




                                                                               Page 14
             Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                     but Improvement Is Needed in the Information Provided

                                                                                                   Appendix I


                            Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide an assessment of the quality of taxpayers’
experiences with the Internal Revenue Service’s (IRS) toll-free telephone assistance program for
account questions from April 21 through May 16, 2003. To accomplish our objective, we:
I.         Identified concerns raised by IRS call sites in preparation for the 2003 Filing Season1 by
           obtaining and reviewing 2003 Filing Season Call Site Certifications for indications of
           concerns or problems.
II.        Determined the accuracy and quality of responses by the IRS’ toll-free telephone
           assistance.
           A.       Selected a judgmental sample of 229 calls from an estimated population of
                    approximately 2.7 million toll-free account calls serviced by the IRS between
                    April 21 and May 16, 2003. We selected a judgmental sample due to limited staff
                    resources while using a monitoring schedule that was representative of the IRS’
                    hours of operation at call sites for answering toll-free account questions.
                    NOTE: We monitored 229 live calls. Only 191 calls were used to report our
                    results because 22 were transferred outside of the monitored application, 9 were
                    disconnected either by the caller or Customer Service Representative (CSR), and
                    for 7 we were unable to sufficiently research the accounts.
           B.       Captured the conversation between the CSR and the caller on a call transcription
                    form and evaluated the technical and procedural accuracy of the CSR’s response
                    by researching the Internal Revenue Manual for procedures and regulations and
                    IRS computer systems for the taxpayer account information.
           C.       Scored each of the 81 attributes for account quality/customer accuracy on the
                    electronic input form for each call.
           D.       Computed the critical measures for the 191 calls monitored.
III.       Compared the results for each critical measure to the rates the IRS reported for the same
           measures, during the same reporting period.




1
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                       Page 15
         Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                 but Improvement Is Needed in the Information Provided

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Gary Young, Acting Director
Paula Johnson, Audit Manager
Patricia Lee, Audit Manager
Jack Forbus, Senior Auditor
Jerome Antoine, Auditor
Mary Keyes, Auditor
Andrea McDuffie, Auditor
Geraldine Vaughn, Auditor




                                                                                         Page 16
        Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                but Improvement Is Needed in the Information Provided

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
National Taxpayer Advocate TA
Deputy Commissioner, Wage and Investment Division SE:W
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:MS:CL
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
       GAO/TIGTA Liaison, Wage and Investment Division SE:W:S:PA




                                                                                 Page 17
          Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                  but Improvement Is Needed in the Information Provided

                                                                                      Appendix IV


                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Taxpayer Burden – Actual; 42 taxpayer accounts affected (see page 6).
Methodology Used to Measure the Reported Benefit:
We selected a judgmental sample of 229 calls from an estimated population of approximately
2.7 million toll-free account calls serviced by the Internal Revenue Service (IRS) between
April 21 and May 16, 2003. We selected a judgmental sample due to limited staff resources
while using a monitoring schedule that was representative of the IRS’ hours of operation at call
sites for answering toll-free account questions. Only 191 of 229 calls were used to report our
results because 22 were transferred outside of the monitored application, 9 were disconnected
either by the caller or Customer Service Representative (CSR), and for 7 we were unable to
sufficiently research the accounts.
For 42 of the 191 calls sampled, the CSR did not always follow IRS procedures and this
prevented the taxpayer from receiving the correct answer or resolution. We considered the CSR
as answering a taxpayer’s question correctly if the taxpayer received a correct response or the
CSR took the appropriate action or disposition leading to a correct resolution.
Type and Value of Outcome Measure:
•   Taxpayer Privacy and Security – Potential; 12 taxpayer accounts affected (see page 9).
Methodology Used to Measure the Reported Benefit:
For an additional 12 of the 191 calls sampled, the CSR did not ask the caller the minimum
required probes or the information the taxpayer provided did not match the information on IRS
data systems. In all instances, the CSR disclosed information to the caller about the account.
For the 12 calls, the CSRs did not ask the taxpayers’ filing status during 8 calls, did not ask the
taxpayer’s name in 1 call, and did not authenticate the third party or corporate officer in 3 calls.
Including this error in our results would reduce customer accuracy from 78 percent (149 of 191)
to 72 percent (137 of 191) of the calls monitored.




                                                                                             Page 18
          Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                  but Improvement Is Needed in the Information Provided

Type and Value of Outcome Measure:
Reliability of Information – Actual; 12 taxpayer accounts affected (see page 9).
Methodology Used to Measure the Reported Benefit:
For an additional 12 of the 191 calls sampled, the CSR did not ask the caller the minimum
required probes or the information the taxpayer provided did not match the information on IRS
data systems. In all instances, the CSR disclosed information to the caller about the account.
For the 12 calls, the CSRs did not ask the taxpayers’ filing status during 8 calls, did not ask the
taxpayer’s name in 1 call, and did not authenticate the third party or corporate officer in 3 calls.
Including this error in our results would reduce customer accuracy from 78 percent (149 of 191)
to 72 percent (137 of 191) of the calls monitored.
These 12 potential disclosure errors were not included in the IRS’ reported customer accuracy.
The IRS believes that customer accuracy should reflect only the accuracy rate of the answers to
the account questions. Including these disclosure errors would reduce customer accuracy. Not
including these errors affects the reliability of the information the IRS reports externally to
stakeholders and could affect their assessment of the IRS’ program.




                                                                                             Page 19
             Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                     but Improvement Is Needed in the Information Provided

                                                                                                    Appendix V

                 Comparisons of Account Calls Product Line Applications

The Internal Revenue Service (IRS) groups or categorizes calls by topics called Applications and
by Wage and Investment (W&I) Division taxpayers and Small Business/Self-Employed (SB/SE)
Division taxpayers.1 Based on the taxpayer’s response to questions, the IRS routes the
taxpayer’s call to the correct Application. Customer Service Representatives answer account
inquiries and are responsible for providing taxpayers with information on the status of their
returns/refunds and for resolving the majority of issues and questions to settle their accounts.
The following compares the Treasury Inspector General for Tax Administration’s (TIGTA)
customer accuracy results with the IRS Customer Accuracy results for the period April 21 to
May 16, 2003.

                                                       NUMBER OF CALLS               TIGTA               IRS
    APPLICATION
                         APPLICATION NAME                 THE TIGTA                CUSTOMER           CUSTOMER
      NUMBER
                                                         MONITORED                 ACCURACY           ACCURACY2

         5            W&I Procedural                             12                    75%                 91%
                      W&I Individual Master File                 13                    69%                 78%
         10
                      (IMF)3 Balance Due
                      W&I Non-Streamlined                         3                    100%                60%
         13
                      Installment Agreement
         15           W&I Refund                                 26                    73%                 88%
         20           W&I IMF Account                            89                    82%                 90%
         25           Employment Tax Account                     12                    83%                 85%
                                           4
         30           Business Master File Other                 11                    91%                 89%
         40           SB/SE Procedural                            1                     0%                100%
         45           SB/SE IMF Balance Due                      10                    60%                 85%
         55           SB/SE IMF Account                          14                    71%                 86%
       Total                                                    191                    78%                 88%

Source: Results of the TIGTA review of toll free account calls received between April 21 and May 16, 2003. Results
from the IRS’ review of toll-free accounts call during the same period obtained from the Quality Review database.



1
  The W&I Division serves taxpayers who earn wages and have investment income. The SB/SE Division serves
self-employed individuals and small businesses, including corporations and partnerships with assets of $10 million
or less.
2
  The IRS Customer Accuracy was based on a statistically valid sample of 2,479 calls.
3
  The IRS database that maintains transactions or records of individual tax accounts.
4
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
                                                                                                           Page 20
           Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                   but Improvement Is Needed in the Information Provided

                                                                                                    Appendix VI


                               Account Calls Product Line Attributes

To measure its customer service, the Internal Revenue Service (IRS) uses a quality measurement
system called Embedded Quality, which links employee performance to organizational results
related to the quality of customer service. As part of Embedded Quality, calls received on the
IRS toll-free Accounts Product Line are measured against 81 qualities, called attributes.1 Every
call is evaluated using 6 mandatory attributes; the remaining 75 attributes are scored only if they
are appropriate for that call. Attributes are divided into the following five quality measures or
“buckets.”
Customer Accuracy: Giving the correct answer with the correct resolution. “Correct” is
measured based on whether the taxpayer received a correct response or resolution to the case or
issue and, if appropriate, whether the Customer Service Representative (CSR) took the necessary
case actions or case disposition to provide this response or resolution. This is the only measure
the IRS reports externally.
Regulatory Accuracy: Adhering to statutory/regulatory process requirements when making
determinations on taxpayer accounts.
Procedural Accuracy: Adhering to internal process requirements.
Professionalism: Promoting a positive image of the IRS by using effective communication
techniques.
Timeliness: Resolving an issue in the most efficient manner through the use of proper workload
management and time utilization techniques.
The measures are calculated based on opportunities for defect. For example, if 10 attributes are
applicable in the Regulatory Accuracy bucket for a particular call/case, and 8 of them are
correctly handled, the Regulatory Accuracy score is 8 correct out of 10 opportunities, or
80 percent.
The scores for the five buckets are never combined with each other to create one overall quality
score; they stand on their own. The buckets are also not weighted to give one bucket more
weight than the others.
The scores for each bucket for an individual call are calculated at the time the call summary is
submitted as “finished.” Reports can be generated to show cumulative scores for each of the five
buckets for various levels of the organization, product lines, Applications, etc.



1
 Attributes identify specific aspects of a call that need to be considered when measuring the quality of customer
service.
                                                                                                            Page 21
            Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                    but Improvement Is Needed in the Information Provided

Each attribute is linked directly to the CSR’s job elements, creating a means of linking business
measures to employee performance. The process creates accountability by connecting employee
evaluations to the quality measurement. Managers use Embedded Quality for planning purposes
and to track employee performance and training needs.
The customer accuracy, professionalism, and timeliness measures are reported to the
Commissioner as part of the IRS’ balanced measures.2 The customer accuracy measure is also
reported externally to IRS stakeholders, e.g., the Congress and the General Accounting Office.
The regulatory accuracy and procedural accuracy measures are internally reported process
measures that are reported to IRS management and other levels of management along with the
other three measures.
The following shows how the five Embedded Quality measures tie into the balanced measures
used by the IRS to measure organizational and employee performance (employee satisfaction,
customer satisfaction, and business results).

                                                  Commissioner

                                               Operation Division




                                                                                                    Em ployee
      Business Results             Business Results:                Custom er
                                                                                                   Satisfaction
           Q uality                     Q uality                   Satisfaction




                                                                                              Definitions
          T im eliness
                                                                              Timeliness - Resolving an issue in the
                                                                              most efficient manner through use of
                                                                              proper workload management and time
                                                                              utilization techniques.

                                                                              Professionalism - Promoting a positive
                                                                              image of the IRS by using effective
                                                                              communication techniques.
       Professionalism
                                                                              Accuracy (Customer Accuracy) - Giving
                                          Extern ally Rep o rted              the correct answer with the correct
                                          Cu stom er M easu re                resolution.

                                                                              Regulatory Accuracy - Adhering to
                                                                              statutory/regulatory process requirements.

                                                                              Procedural Accuracy - Adhering to non
            Accu racy                                                         statutory/regulatory internal process
                                         C ustom er Accuracy                  requirements.



                                        Regulatory Accuracy
     Externally Reported Quality                                         Internally Reported
              Measures                                                    P rocess Measures
                                        Procedural Accuracy




Source: Internal Revenue Service, Embedded Quality Briefing, dated September 2002.



2
 Three measures (employee satisfaction, customer satisfaction, and business results) the IRS uses to measure
organizational and employee performance.
                                                                                                                   Page 22
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
        but Improvement Is Needed in the Information Provided

                                                                 Appendix VII


           Management’s Response to the Draft Report




                                                                        Page 23
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
        but Improvement Is Needed in the Information Provided




                                                                        Page 24
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
        but Improvement Is Needed in the Information Provided




                                                                        Page 25
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
        but Improvement Is Needed in the Information Provided




                                                                        Page 26
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
        but Improvement Is Needed in the Information Provided




                                                                        Page 27
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
        but Improvement Is Needed in the Information Provided




                                                                        Page 28
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
        but Improvement Is Needed in the Information Provided




                                                                        Page 29
